No. _________
IN THE SUPREME COURT OF THE UNITED STATES

JOEL REYNA-ARAGON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
APPENDIX

/s/ Kevin Joel Page
JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax

KEVIN J. PAGE **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 24042691
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit, CA No. 20-10071, dated
March 26, 2021, United States v. Reyna-Aragon.
Appendix B Judgment and Sentence of the United States District Court
for the Northern District of Texas, entered January 17, 2020.
United States v. Reyna-Aragon, Dist. Court 3:19-CR-00275-B-1.

APPENDIX A

Case: 20-10071

Document: 00515797679

Page: 1

Date Filed: 03/26/2021

United States Court of Appeals
for the Fifth Circuit
___________
No. 20-10071
___________

United States Court of Appeals
Fifth Circuit

FILED
March 26, 2021
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Joel Reyna-Aragon,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CR-275-1
____________________________
Before Elrod, Willett, and Engelhardt, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and was argued by
counsel.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

Case: 20-10071

Document: 00515797658

Page: 1

Date Filed: 03/26/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

March 26, 2021

No. 20-10071

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Joel Reyna-Aragon,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CR-275-1
Before Elrod, Willett, and Engelhardt, Circuit Judges.
Kurt D. Engelhardt, Circuit Judge:
Joel Reyna-Aragon pleaded guilty to illegal reentry after removal from
the United States in violation of 8 U.S.C. § 1326(a) and (b)(1). Applying the
2018 Guidelines, the district court sentenced him within the Guidelines
range to 60 months of imprisonment. He now appeals his sentence, arguing
that the district court committed ex post facto error by sentencing him
pursuant to the 2018 Guidelines (those in effect when he was sentenced),
rather than the more lenient 2016 Guidelines (those in effect when he
committed his offense). He also argues that the district court erred under the

Case: 20-10071

Document: 00515797658

Page: 2

Date Filed: 03/26/2021

No. 20-10071

Fifth Amendment’s Due Process Clause by considering a bare arrest record
at sentencing. We AFFIRM.
I.
Reyna-Aragon, a native and citizen of Mexico, relocated to the United
States as a child. He was granted legal permanent resident status on March
28, 2001, but subsequent criminal activity rendered him deportable. In April
2001, he pleaded guilty in Texas state court to felony sexual assault of a child
under 17 (“child sex conviction”) and was sentenced to five years of
deferred-adjudication probation. In July 2001, he was arrested in Texas on a
separate sexual assault charge (“sexual assault arrest”), which ultimately was
“no billed.” Reyna-Aragon was ordered removed from the United States to
Mexico in February 2004.
Shortly after Reyna-Aragon was removed, he reentered the United
States. In May 2004, a Texas state court revoked his probation for the child
sex conviction and imposed a two-year prison sentence. In August 2005, after
his sentence expired, he was ordered removed to Mexico for the second time.
Over the next several years, he reentered the United States at least twice
more and sustained Texas state court convictions for failure to register as a
sex offender, failure to identify himself to a law enforcement officer, and
driving while intoxicated (“DWI”).
In May 2019, Reyna-Aragon was indicted in the Northern District of
Texas for illegally reentering the United States after removal in violation of
8 U.S.C. § 1326(a) and (b)(1). He pleaded guilty to the charge without a plea
agreement. In advance of Reyna-Aragon’s January 2020 sentencing, a
probation officer prepared a presentence report (“PSR”). The probation
officer determined that Reyna-Aragon’s illegal reentry offense concluded on
January 28, 2018, while the 2016 Guidelines were still effective. The
probation officer initially applied the 2016 Guidelines in the PSR, reasoning

2

Case: 20-10071

Document: 00515797658

Page: 3

Date Filed: 03/26/2021

No. 20-10071

that use of the 2018 Guidelines (those in effect at sentencing) would violate
the Constitution’s Ex Post Facto Clause. Under the 2016 Guidelines, ReynaAragon received a total offense level of 17, including a four-level
§ 2L1.2(b)(2)(D) enhancement for his felony child sex conviction, and a
Guidelines range of 37–46 months of imprisonment.
The Government objected to the probation officer’s use of the 2016
Guidelines, arguing that application of the 2018 Guidelines was required and
would not result in an ex post facto violation. The probation officer agreed
with the Government and issued a revised PSR that applied the 2018
Guidelines and dismissed all previous ex post facto concerns. Under the 2018
Guidelines, Reyna-Aragon received a total offense level of 21, including an
eight-level § 2L1.2(b)(2)(B) enhancement for his felony child sex conviction,
and a Guidelines range of 57–71 months of imprisonment.
Reyna-Aragon objected to the revised PSR, arguing that the Ex Post
Facto Clause barred retroactive application of the 2018 Guidelines, because
it yielded a more onerous sentencing range than the 2016 Guidelines in effect
at the time of his illegal reentry offense. He contended that the district court
was required to apply the 2016 Guidelines. At issue was the § 2L1.2(b)(2)
enhancement. Under the 2018 Guidelines, Reyna-Aragon received an eightlevel § 2L1.2(b)(2)(B) enhancement because, before his first removal, he
engaged in conduct resulting in a felony conviction for which he ultimately
received a two-year prison sentence.1 But under the 2016 Guidelines, ReynaAragon would not have received the § 2L1.2(b)(2)(B) enhancement because,
before his first removal, the probation on his felony conviction had not yet

1

U.S.S.G. § 2L1.2(b)(2)(B) (2018) (“If, before the defendant was ordered . . .
removed from the United States for the first time, the defendant engaged in criminal
conduct that, at any time, resulted in . . . a conviction for a felony offense . . . for which the
sentence imposed was two years or more, increase by 8 levels.”).

3

Case: 20-10071

Document: 00515797658

Page: 4

Date Filed: 03/26/2021

No. 20-10071

been revoked, and he had not yet received a prison sentence.2 Instead, he
would only have received a four-level § 2L1.2(b)(2)(D) enhancement.3
Reyna-Aragon’s objection was overruled by the district court, which adopted
the revised PSR and applied the 2018 Guidelines at sentencing.
In arguing for a “midpoint to higher” sentence within the 2018
Guidelines range (57–71 months), the Government contended that ReynaAragon posed a danger to the safety of the community, citing his state court
convictions and two prior removals. The Government further noted ReynaAragon’s sexual assault arrest, stating that “it was no billed, but it was
deemed serious enough that I think his community supervision was
extended.”
After hearing from the parties, the district court stated,
I think that the prior [child sex conviction] is—you know, it
may have been 20 years ago, but it’s very serious. And then he
has another one that he got arrested for. . . . I know he was
adjudicated guilty [of the child sex offense]. And then, you
know . . . he had two years to do. So it is a serious offense.

2

At the time, the Fifth Circuit interpreted U.S.S.G. § 2L1.2(b)(2)(B) (2016) to
apply only if the defendant’s probation was revoked, and the sentence imposed, prior to his
first removal. United States v. Franco-Galvan, 864 F.3d 338 (5th Cir. 2017). The 2018
Guidelines amended § 2L1.2(b)’s text and application notes to specifically nullify FrancoGalvan. U.S.S.G. § 2L1.2(b)(2) (2018); U.S.S.G. supp. app. C, amend. 809 (“[T]he length
of a sentence imposed for purposes of § 2L1.2(b)(2) . . . should include any additional term
of imprisonment imposed upon revocation of probation, suspended sentence, or supervised
release, regardless of whether the revocation occurred before or after the defendant’s first (or any
subsequent) order of removal.” (emphasis added)).
3

U.S.S.G. § 2L1.2(b)(2)(D) (2016) (“If, before the defendant was ordered . . .
removed from the United States for the first time, the defendant sustained . . . a conviction
for any other felony offense . . . increase by 4 levels.”); see Franco-Galvan, 864 F.3d at 340–
43 (four-level enhancement under § 2L1.2(b)(2)(D) (2016) applied to defendant who
sustained felony conviction and only received probation before his first removal).

4

Case: 20-10071

Document: 00515797658

Page: 5

Date Filed: 03/26/2021

No. 20-10071

...
And then you have the failure to register as a sex offender,
which is serious; he’s not following his obligations. And he got
in trouble for that. He got convicted of a crime for that [and]
failure to identify, same time. And then a DWI, which he was
involved in a crash. So all that is very serious. And we have
another sexual assault arrest, not a prosecution, but,
nonetheless, an arrest in 2001. So we have all those serious
crimes, and he has been here twice.
So I think really for the safety of the community, to promote
respect for the law and to provide just punishment and all the
other [18 U.S.C. § 3553(a)] factors, that 60 months is right. 60
months is not the very bottom, but it’s at the bottom of the
range, and it will do for me. 60 months is not too much, not
more than it should be to carry out the purposes of our
sentencing statutes.
After Reyna-Aragon reiterated his ex post facto objection, the district court
continued,
I want to say—and I don’t ever say this. But I would have given
him 60 months if the ex post facto law had been in place or not,
because I think [the child sex conviction] is a serious enough
offense. And it was not that long ago, 20 years, but it’s still a
serious offense, so I would have done it anyway.
The district court issued a final judgment sentencing Reyna-Aragon to 60
months of imprisonment.
Reyna-Aragon timely appealed. Relying on United States v. MartinezOvalle, 956 F.3d 289 (5th Cir. 2020), he argues that the district court erred
by applying the 2018 Guidelines in effect at sentencing, because the Ex Post
Facto Clause required application of the more lenient 2016 Guidelines in
effect at the time of his illegal reentry offense. The Government concedes the
ex post facto error but contends that this error was harmless, because the
district court stated that it would have imposed a 60-month sentence

5

Case: 20-10071

Document: 00515797658

Page: 6

Date Filed: 03/26/2021

No. 20-10071

notwithstanding any ex post facto error. Reyna-Aragon additionally argues
that the district court erred under the Due Process Clause of the Fifth
Amendment by relying on a bare arrest record of his sexual assault arrest at
sentencing.
II.
This court reviews the district court’s interpretation and application
of the Sentencing Guidelines de novo. Martinez-Ovalle, 956 F.3d at 292.
Although “[t]here is no dispute but that a district court commits procedural
error by improperly calculating the [G]uidelines range,” reversal is
unwarranted if the error was harmless, “that is[,] the error did not affect the
district court’s selection of the sentence imposed.” United States v.
Richardson, 676 F.3d 491, 511 (5th Cir. 2012) (internal quotation marks and
citation omitted). “The party seeking to uphold the sentence”—here, the
Government—has the burden of demonstrating the error’s harmlessness.
United States v. Garcia-Figueroa, 753 F.3d 179, 192 (5th Cir. 2014).
III.
A. Ex Post Facto Sentencing Error
We are not bound by the Government’s concession of an ex post facto
sentencing error and give the issue independent review. See United States v.
Hope, 545 F.3d 293, 295 (5th Cir. 2008). Generally, a district court must
apply the version of the Sentencing Guidelines in effect at the time of
sentencing. United States v. Kimler, 167 F.3d 889, 893 (5th Cir. 1999).
However, when application of the Guidelines effective at sentencing
generates a higher sentencing range than application of the Guidelines
effective at the time of the defendant’s offense, “the Ex Post Facto Clause
obligates the district court to apply the older, more lenient Guidelines.”
Martinez-Ovalle, 956 F.3d at 292 & n.13 (citing U.S. CONST. art I, § 9, cl. 3
(“No . . . ex post facto Law shall be passed.”)).

6

Case: 20-10071

Document: 00515797658

Page: 7

Date Filed: 03/26/2021

No. 20-10071

The parties agree that the district court committed ex post facto error
under Martinez-Ovalle. Indeed, the facts of Martinez-Ovalle are nearly
identical to the present case. Reyna-Aragon and the Martinez-Ovalle
defendant both sustained state court felony convictions for which they
initially received probation. Id. at 291. Both individuals subsequently were
removed from the United States for the first time, reentered the country, had
their probations revoked, and received two-year prison sentences. Id. Both
later pleaded guilty to illegal reentry after removal in federal district court.
Id. Their illegal reentry offenses both occurred while the 2016 Guidelines
were in effect, and their sentencing proceedings both occurred while the 2018
Guidelines were in effect. Id. at 290–91. The district courts sentenced both
individuals under the 2018 Guidelines and imposed eight-level §
2L1.2(b)(2)(B) enhancements based on their state court felony convictions,
which accounted for their two-year prison sentences. Id. at 291. If both
individuals had been sentenced under the 2016 Guidelines, as interpreted by
our court in Franco-Galvan, the district courts would have considered only
their probations on the felony convictions in calculating the § 2L1.2(b)(2)
enhancements; consequently, both would have received lesser four-level
enhancements under § 2L1.2(b)(2)(D). Id. at 291–92 & nn.6–7.
Because the Martinez-Ovalle defendant would have received a lower
Guidelines range under the 2016 Guidelines, we held that the district court’s
application of the more stringent 2018 Guidelines violated the Ex Post Facto
Clause. Id. at 294–95. Similarly, Reyna-Aragon received a Guidelines range
of 57–71 months under the 2018 Guidelines but would have received a lower
range of 37–46 months under the 2016 Guidelines. Accordingly, the district
court committed ex post facto error when it applied the more onerous 2018
Guidelines in effect at the time of Reyna-Aragon’s sentencing, rather than
the more lenient 2016 Guidelines in effect at the time of his illegal reentry
offense. See id. at 294–95.

7

Case: 20-10071

Document: 00515797658

Page: 8

Date Filed: 03/26/2021

No. 20-10071

B. Whether the Error Was Harmless
Citing Molina-Martinez v. United States, 136 S. Ct. 1338 (2016), ReynaAragon argues that there is a presumption that the district court committed
reversible error, because it based his sentence on an incorrect Guidelines
range. However, Molina-Martinez established no such presumption.
Although the Supreme Court in that case observed that, “[i]n most cases[,]
a defendant who has shown that the district court mistakenly deemed
applicable an incorrect, higher Guidelines range has demonstrated a
reasonable probability of a different outcome,” it also explicitly recognized
an exception to that general rule when the record shows that “the district
court thought the sentence it chose was appropriate irrespective of the
Guidelines range.” Molina-Martinez, 136 S. Ct. at 1346; see United States v.
Sanchez-Hernandez, 931 F.3d 408, 411 (5th Cir. 2019) (observing that,
although Molina-Martinez predicted that erroneous calculation of Guidelines
range normally would suffice to establish effect on defendant’s substantial
rights, it did not establish presumption).
We recognize two ways by which the Government can show that a
Guidelines error was harmless. “One is to show that the district court
considered both ranges (the one now found incorrect and the one now
deemed correct) and explained that it would give the same sentence either
way.” United States v. Guzman-Rendon, 864 F.3d 409, 411 (5th Cir. 2017).
The sentencing transcript does not show that the district court expressly
considered the correct Guidelines range of 37–46 months.
The other approach to showing harmlessness is twofold. First, the
Government must convincingly demonstrate that the district court would
have imposed a sentence outside the properly calculated Guidelines range for
the same reasons it provided at the sentencing hearing. United States v.
Ibarra–Luna, 628 F.3d 712, 718–19 (5th Cir. 2010). Second, the Government

8

Case: 20-10071

Document: 00515797658

Page: 9

Date Filed: 03/26/2021

No. 20-10071

must demonstrate that the “sentence the district court imposed was not
influenced in any way by the erroneous Guidelines calculation,” but rather
was based on “independent factors.” Id. at 719. The Government bears a
“heavy burden” under this approach. Id. at 717.
Citing the seriousness of Reyna-Aragon’s criminal history, the district
court stated that a 60-month sentence was appropriate under the § 3553(a)
factors, with an emphasis on protecting the community, promoting respect
for the law, and providing just punishment. The district court then explicitly
stated that it would have imposed the same 60-month sentence if its use of
the 2018 Guidelines constituted ex post facto error, given the seriousness of
Reyna-Aragon’s child sex conviction. This statement convincingly
demonstrates that the district court would have imposed a sentence outside
the properly calculated Guidelines range for the same overarching reason it
provided at the sentencing hearing: the seriousness of Reyna-Aragon’s
criminal history. Ibarra–Luna, 628 F.3d at 718–19.
Next, the Government must demonstrate that the district court “was
not influenced in any way by the erroneous Guidelines calculation” in
selecting the 60-month sentence. See id. at 719. We have found that a district
court was influenced by an erroneous Guidelines calculation when the
district court (1) selected a sentence that “coincide[d] with the lowest end of
the improperly calculated [G]uideline[s] range”; and (2) “expressly stated
that [the defendant’s] prior conduct was ‘sufficient to justify a sentence
within [the erroneous Guidelines range].’” United States v. Martinez-Romero,
817 F.3d 917, 925–26 (5th Cir. 2016) (per curiam).
In another case, we affirmed the sentence of a defendant who had been
sentenced at the bottom of an arguably erroneous Guidelines range. United
States v. Castro-Alfonso, 841 F.3d 292, 297–99 (5th Cir. 2016). In reaching an

9

Case: 20-10071

Document: 00515797658

Page: 10

Date Filed: 03/26/2021

No. 20-10071

alternative holding that any error was harmless, we cited the following
passage from the district court’s pronouncement of sentence:
In imposing [the 46–month] sentence the Court has considered
all the 3553(a) factors. The Court believes that its ruling on the
objection is correct. But if the Court is in error, the Court,
nonetheless, would impose the same sentence noting that it’s
reflected in the transcript itself, the offense was one that
involved burglary of a dwelling. So the Court would impose the
same sentence even if it is in error as to the enhancement here.
Id. at 298 (alteration in original). Based on this passage, we concluded that
the district court did not “beat around the bush” or “equivocate” in
selecting the sentence; rather, the district court “elaborated upon [its]
reasoning and stated plainly that the court would have imposed the same
sentence regardless of whether the court was in error.” Id. We further found
that the district court’s “firm, plain, and clear” expression of its reasoning
in Castro-Alfonso was distinguishable from Martinez-Romero, where there was
record evidence of the district court’s improper influence by an erroneous
sentencing range. Id. at 298–99; c.f. Martinez-Romero, 817 F.3d at 925–26.
Although Reyna-Aragon’s 60-month sentence did not coincide with
the lowest end of the erroneous Guidelines range of 57–71 months, c.f.
Martinez-Romero, 817 F.3d at 925–26, he contends that the district court
demonstrated that it was influenced by the erroneous range when it stated
that “60 months is not the very bottom, but it’s at the bottom of the range,
and it will do for me.” For the following reasons, we find that this statement,
read in the context of the entire sentencing transcript, was simply an
observation of where the 60-month sentence happened to fall—not an
express justification of that sentence within and based upon the erroneous
Guidelines range.

10

Case: 20-10071

Document: 00515797658

Page: 11

Date Filed: 03/26/2021

No. 20-10071

First, the district court explicitly instructed the Government to
present its sentencing argument without reference to the erroneous
Guidelines range:
GOVERNMENT: Your Honor, I certainly think a sentence
within the guidelines—
DISTRICT COURT: I mean, I want to hear what you have to
say. Just . . . don’t say within the guidelines. Let me hear what
you have to say, really.
Second, the district court’s reference to the location of the 60-month
sentence within the erroneous Guidelines range was made in the context of
its broader discussion of the independent reasons for selecting that sentence.
Specifically, the district court explained that “60 months is not too much,
not more than it should be to carry out the purposes of our sentencing
statutes,” including protecting the community, promoting respect for the
law, and providing just punishment. Finally, as discussed above, the district
court expressly stated that it would have imposed the 60-month sentence
regardless of whether its use of the 2018 Guidelines constituted ex post facto
error, given Reyna-Aragon’s criminal history.
Thus, the record reflects that the district court justified ReynaAragon’s 60-month sentence on factors independent from the erroneous
Guidelines range. See Ibarra–Luna, 628 F.3d at 719; c.f. Martinez-Romero, 817
F.3d at 925–26. Additionally, the district court’s “firm, plain, and clear”
statement that a 60-month sentence was appropriate regardless of any ex post
facto error closely resembles the statement upon which we based our
harmlessness holding in Castro-Alfonso. See 841 F.3d at 298–99. Accordingly,
we find that the district court was not influenced by the erroneous Guidelines
calculation in imposing Reyna-Aragon’s 60-month sentence. See Ibarra–
Luna, 628 F.3d at 719.

11

Case: 20-10071

Document: 00515797658

Page: 12

Date Filed: 03/26/2021

No. 20-10071

For the foregoing reasons, we find that the Government has satisfied
its “heavy burden” of proving that the district court’s Guidelines error was
harmless. See id. at 717–19.
C. Bare Arrest Record
Reyna-Aragon contends that the district court violated the Due
Process Clause at sentencing by considering the PSR’s description of his nobilled Texas sexual assault arrest, which he characterizes as a bare arrest
record. He argues that he preserved this challenge in the district court, citing
the following statement made by his defense counsel at sentencing: “Not
having the full case report, it’s difficult for us to gauge exactly what
happened.” However, this statement, on its face, hardly constitutes an
objection to the district court’s reliance on a bare arrest record. Further, after
reviewing the sentencing transcript, we find that defense counsel’s statement
referred to Reyna-Aragon’s child sex conviction, not his sexual assault arrest.
Because Reyna-Aragon did not raise this issue in the district court,
plain error review applies. See United States v. Williams, 620 F.3d 483, 493
(5th Cir. 2010). To succeed, he must show a clear or obvious error that affects
his substantial rights, that is, the error “affected the outcome of the district
court proceedings.” Puckett v. United States, 556 U.S. 129, 135 (2009)
(quoting United States v. Olano, 507 U.S. 725, 734 (1993)). If he makes this
showing, we have the discretion to correct the error if it has a serious effect
on “the fairness, integrity or public reputation of judicial proceedings.” Id.
(quoting Olano, 507 U.S. at 736).
“It is well-established that prior criminal conduct not resulting in a
conviction may be considered by the sentencing judge.” United States v.
Lopez-Velasquez, 526 F.3d 804, 807 (5th Cir. 2008) (per curiam) (citing
United States v. Jones, 444 F.3d 430, 434 (5th Cir. 2006)). Nevertheless, “for
a non-Guidelines sentence, just as for a Guidelines sentence, it is error for a

12

Case: 20-10071

Document: 00515797658

Page: 13

Date Filed: 03/26/2021

No. 20-10071

district court to consider a defendant’s ‘bare arrest record’ at sentencing.”
United States v. Johnson, 648 F.3d 273, 278 (5th Cir. 2011). “The term ‘bare
arrest record,’ in the context of a PSR describes the reference to the mere
fact of an arrest—i.e. the date, charge, jurisdiction and disposition—without
corresponding information about the underlying facts or circumstances
regarding the defendant’s conduct that led to the arrest.” United States v.
Harris, 702 F.3d 226, 229 (5th Cir. 2012) (per curiam). Generally, a PSR has
sufficient indicia of reliability and its facts may be adopted without further
inquiry if an adequate evidentiary basis is provided and the defendant does
not offer rebuttal evidence or otherwise show that the PSR’s information is
not reliable. Id. at 230–31. A no-bill under Texas law is “nothing more than
the decision by a particular grand jury that the specific evidence before it did
not convince it to charge the defendant with an offense,” and “[b]y itself, the
no-bill cannot transform a factual recitation with sufficient indicia of
reliability into one that lacks such indicia.” United States v. Fields, 932 F.3d
316, 323 (5th Cir. 2019), cert. denied, 140 S. Ct. 1299 (2020).
In addition to the date, charge, jurisdiction, and disposition of the
Reyna-Aragon’s sexual assault arrest, the PSR described the allegations
contained in the criminal complaint, including the identity of the alleged
victim and the specific conduct of the alleged offense:
According to the Criminal Complaint, on or about July 1, 2001,
the defendant did knowingly and intentionally: with the
specific intent to commit the offense of sexual assault of [C.
A.], by placing his hand on her breasts and unfasten[ing] her
shorts against her will, which amounted to more than mere
preparation that tended but failed to effect the commission of
the offense intended.
See TEX. CODE CRIM. PROC. arts. 15.04 & 15.05 (criminal complaint affidavit
“must show that the accused has committed some offense against the laws of
the State, either directly or that the affiant has good reason to believe, and

13

Case: 20-10071

Document: 00515797658

Page: 14

Date Filed: 03/26/2021

No. 20-10071

does believe, that the accused has committed such offense”). Thus, the PSR
contained corresponding information detailing the conduct that led to ReynaAragon’s sexual assault arrest. See Harris, 702 F.3d at 229. Because there was
an adequate evidentiary basis and Reyna-Aragon did not offer rebuttal
evidence or show that the information was not reliable, the PSR was reliable,
and the district court was permitted to adopt it. See id. at 230–31.
In questioning the correctness of the district court’s reliance on the
PSR’s description of his sexual assault arrest, Reyna-Aragon again cites to his
defense counsel’s statement at sentencing regarding the district court’s
inability to know “exactly what happened” as to that arrest. As explained
above, defense counsel’s statement referred to Reyna-Aragon’s child sex
conviction, not his sexual assault arrest. Citing another statement made by
the district court at sentencing, Reyna-Aragon asserts that the district court
acknowledged its lack of knowledge and reliable evidence about the sexual
assault allegation. Read in context, the district court does not express any
doubt regarding the veracity of the sexual assault allegation; rather, the
district court merely admits its inability to verify whether Reyna-Aragon’s
community supervision had been extended following the sexual assault
arrest, as had been previously alleged by the Government at the sentencing
hearing.
Finally, Reyna-Aragon fails to show that the district court’s reliance
on the PSR’s description of his sexual assault arrest affected his substantial
rights. See Puckett, 556 U.S. at 135. In concluding that the § 3553(a) factors
supported a 60-month sentence, the district court did not simply rely on
Reyna-Aragon’s sexual assault arrest; it additionally based its sentencing
decision on his multiple reentries into the United States and his Texas state
court convictions for sexual assault of a child under 17, failure to register as a
sex offender, failure to identify himself to a law enforcement officer, and
DWI. Reyna-Aragon has not shown that he would have received a lower

14

Case: 20-10071

Document: 00515797658

Page: 15

Date Filed: 03/26/2021

No. 20-10071

sentence but for the consideration of his sexual assault arrest. See Williams,
620 F.3d at 495–96.
For the foregoing reasons, we find that the PSR’s description of
Reyna-Aragon’s sexual assault arrest was not a “bare arrest record.” See
Harris, 702 F.3d at 229–31. Reyna-Aragon fails to show that the district court
committed any error—much less clear or obvious error—affecting his
substantial rights in its reliance on this description at sentencing. See Puckett,
556 U.S. at 135.
IV.
For the foregoing reasons, we AFFIRM the district court’s final
judgment sentencing Reyna-Aragon to 60 months of imprisonment.

15

APPENDIX B

Case 3:19-cr-00275-B Document 38 Filed 01/17/20

Page 1 of 4 PageID 128

Case 3:19-cr-00275-B Document 38 Filed 01/17/20

Page 2 of 4 PageID 129

Case 3:19-cr-00275-B Document 38 Filed 01/17/20

Page 3 of 4 PageID 130

Case 3:19-cr-00275-B Document 38 Filed 01/17/20

Page 4 of 4 PageID 131

